, ±0-1X11-

NO
In the Supreme Court of the United States

Julie Dalessio,
Petitioner
v.

UNIVERSITY OF WASHINGTON, a Washington Public
Corporation;
Eliza Saunders, Director of the Office of Public
Records;
Alison Swenson, Compliance Analyst;
Perry Tapper, Compliance Officer;
Andrew Palmer, Compliance Analyst; and
John or Jane Does 1-12.
Defendant-Appellees
Respondents.

FILED
FEB 2 5 2021
suprem°FcTourtLmsK

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

Julie Dalessio
Petitioner
1110 29th Ave., Seattle, WA 98122
Email: juliedalessio@msn.com
T: 206 324 2590

RECEIVED
MAR 2 - 2021

i.

BACKGROUND
Under color of the Washington Public
Records Act (RCW 42.56 et seq.), the University of
Washington (UW) Office of Public Records
produced personal, privileged information,
including protected health information, in electronic
public records.
The Ninth circuit, on appeal of summary
judgment dismissal, decided:
“With respect to the release of Dalessio’s health
and medical information, a § 1983 claim cannot
be sustained under the ADA or HIPAA. See Vinson
v. Thomas, 288 F.3d 1145, 1155-56 (9th Cir. 2002)
(“[A] comprehensive remedial scheme for the
enforcement of a statutory right creates a
presumption that Congress intended to foreclose
resort to more general remedial schemes to
vindicate that right.” (internal quotation marks
and citation omitted)).” DktEntry/49-1 at 3 (App.
at 4)
QUESTIONS PRESENTED
1. Does a “comprehensive remedial scheme for
the enforcement of a statutory right” under
the Americans with Disabilities Act (ADA) [42
U.S.C. 12101 et seq.] foreclose resort to a 42
U.S.C. § 1983 claim to vindicate the right?

/

ii.

2. Did the Ninth circuit court of appeals so far
depart from the accepted and usual course of
judicial proceedings, or sanctioned such a
departure by the district court, as to call for
an exercise of this Court’s supervisory
power?

iii.

PARTIES TO THE PROCEEDING
Petitioner/ Plaintiff is
Julie Dalessio, a former classified employee of the
University of Washington.
Respondents/ Defendants are:
The University of Washington, a State public
corporation,
Named parties are Employees/Officers of the
University Office of Public Records and Open Public
Meetings with proven personal involvement in the
unlawful disclosures of protected health
information.
• Eliza Saunders, Director of the Office of
Public Records;
• Alison Swenson, Compliance Analyst;
• Perry Tapper, Compliance Officer;
• Andrew Palmer, Compliance Analyst;
Unnamed are university employees, John or Jane
Does 1-12, who participated in the unlawful
searches and disclosures.

iv.
RELATED PROCEEDINGS
Dalessio v. University of Washington, et al,
No. 19-35675, U. S. Court of Appeals for the Ninth
Circuit.
• Rehearing denied October 30, 2020.
DktEntry/ 51 (App. at 1)
• Judgment entered August 10, 2020. DktEntry/
49-1 (App. at 2)
No. 2:17-cv-00642-MJP, U.S. District Court for
Western Washington, Seattle
• Reconsideration denied 7/9/19. Dkt. 188
(App. at 6)
• Final Partial Summary Judgment entered
6/7/19 Dkt. 176 (App. at 13)
• Partial Summary Judgment entered 2/11/19.
Dkt. 153 (App. at 30)
• Order granting absolute immunity to Defense
counsel, Jayne Freeman and staff. 4/6/18.
Dkt. 80 (App. at 49)
• UW removed this case to U.S. District Court
on 4/24/2017. Dkt. 1 (App. at 103)
Dalessio v. University of Washington
• No. 17-2-07812-3, King County Superior Court
filed 3/28/2017 (App. at 106)

V.

TABLE OF CONTENTS
QUESTIONS PRESENTED...........
PARTIES TO THE PROCEEDING
RELATED PROCEEDINGS.........
APPENDIX CONTENTS..............
TABLE OF AUTHORITIES...........

i-ii
iii
IV

vi
vii

1
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS
1
PETITION FOR A WRIT OF CERTIORARI
INTRODUCTION..........................................
QUESTION 1................................................
QUESTION 2.................................................

2
5
18

STATEMENT OF THE CASE

18

Reasons for granting the
petition.............................
APPENDIX.......................

43
47

VI.

APPENDIX CONTENTS
Court of appeals rehearing denial
(10/30/2020).............................. ......

App. 1

Court of appeals opinion and order
(8/10/2020)..........................................

App. 2

District court Reconsideration denial
.................................................App. 6
District court opinion and order
partial summary judgment
(6/7/2019)
District court opinion and order
granting partial summary judgment
(2/11/2019)............................................

(7/19/2019)
granting
App. 13

App. 30

District court opinion and order
granting prosecutorial absolute immunity
App. 49
to defense counsel (4/6/2018)
Complaint U.S. District Court

App. 52

UW removal to U.S. District Court (4/24/2017) Dkt.
App. 103
1
No. 17-2-07812-3, King County Superior Court
App. 106
complaint
App. 107
STATUTORY PROVISIONS
App. 115
Dkt. 89, returned mail

vii.
TABLE OF AUTHORITIES
Adickes v. SH Kress & Co., 398 US 144 - Supreme
8
Court 1970
Board of Trustees of Univ. of Ala. v. Garrett, 531 US
14
356, 2001
Bullington v. Bedford County, 905 F. 3d 467
7-12
6th Circuit 2018
Carnegie-Mellon Univ. v. Cohill, 484 US 343 36, 38
Supreme Court 1988
Daniels v. Williams, 474 US 327 Supreme Court 1986 ....................

27

Fitzgerald v. Barnstable School Committee, 555 US
246 - Supreme Court 2009
9, 11
In re Adobe Systems, Inc. Privacy Litigation, 66 F.
Supp. 3d 1197 - Dist. Court, ND California
32
2014
Maine v. Thiboutot, 448 U.S. 1, 100 S.Ct. 2502, 65
15
L.Ed.2d 555 (1980)
Rancho Palos Verdes v. Abrams, 544 US 1139, 10,15
Supreme Court 2005

Tennessee v. Lane, 541 US 509 - 2004

13

Vinson v. Thomas, 288 F.3d 1145 9th Circuit, 2003
5, 6

viii.
Washington Public Employees Association et al v.
WASHINGTON STATE 450 P.3d 601, 609 Supreme
Court of Washington (Oct. 24, 2019).
35-36
US Constitution Fourteenth Amendment
1, 2, 11-14, 42
42 U.S.C. § 1983
42 U.S.C. § 2000e-5(f-g)

1,5-15, 32,33, 43
1,8, 32,33

42 U.S.C. § 12101

1,2, 13, 17,44

42 U.S.C. § 12112

1-3,7,13-16,32

42 U.S.C. § 12117
RCW 42.56.060

1, 7-9
1,25, 26,40

1

JURISDICTION
The judgment of the Ninth Circuit court of
appeals was entered on August 10, 2020. (App. B)
Petitioner filed a Petition for Panel Rehearing
and for Rehearing En Banc which was denied on
October 30, 2020. (App. A)
This petition was timely filed (pursuant to
November 3, 2020 Supreme Court “covid update”)
and the jurisdiction of this Court is invoked under
28 U.S.C.§ 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
The US Constitution Section 1 of the
Fourteenth Amendment provides, in relevant part:
"No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property,
without due process of law; nor deny to any
person within its jurisdiction the equal protection
of the laws."
Pertinent statutory provisions are set forth in
the Appendix. (App. at 107)
42 U.S.C. § 1983
42 U.S.C. § 2000e-5(f-g)

42 U.S.C. § 12101
42 U.S.C. § 12112
42 U.S.C. § 12117
RCW 42.56.050
RCW 42.56.060

2

PETITION FOR A WRIT OF CERTIORARI
INTRODUCTION
Congress enacted the Americans with
Disabilities Act (ADA) [42U.S.C. 12101 etseq.] in
1990:
"to invoke the sweep of congressional
authority, including the power to enforce the
fourteenth amendment and to regulate
commerce,” and "to provide a clear and
comprehensive national mandate for the
elimination of discrimination against
individuals with disabilities." § 12101(b).
“the Nation’s proper goals regarding
individuals with disabilities are to assure
equality of opportunity, full participation,
independent living, and economic selfsufficiency for such individuals;”
and
“(8) the continuing existence of unfair and
unnecessary discrimination and prejudice
denies people with disabilities the
opportunity to compete on an equal basis
and to pursue those opportunities for which
our free society is justifiably famous, and
costs the United States billions of dollars in
unnecessary expenses resulting from
dependency and non-productivity.” §
12101(a)(7)-(8)
Subchapter Title I of the Act prohibits
employers from "utilizing standards, criteria, or
methods of administration ... that have the effect of
discrimination on the basis of disability." §
12112(b)(3)(A).

3

Title I in 42 U.S.C. § 12112 (d)(3)(B) provides
in pertinent part:
"information obtained regarding the medical
condition or history of the applicant is
collected and maintained on separate
forms and in separate medical files and is
treated as a confidential medical record,
except that—(i) supervisors and managers
may be informed regarding necessary
restrictions on the work or duties of the
employee and necessary
accommodations;(ii) first aid and safety
personnel may be informed, when
appropriate, if the disability might require
emergency treatment; and(iii) government
officials investigating compliance with this
chapter shall be provided relevant
information on request; and (C) the results of
such examination are used only in
accordance with this subchapter.”
and
“42 U.S.C. § 12112 (d)(4)(C) Information
obtained under subparagraph(B) regarding
the medical condition or history of any
employee are subject to the requirements of
subparagraphs (B) and (C) of paragraph (3).”
(emphasis added)
The purpose of this confidentiality
requirement “.. . was, at least in part, to permit
employers to inquire into employees' medical
conditions in order to provide reasonable
accommodations, while avoiding subjecting
employees to the "blatant and subtle stigma" that

4

attaches to "being identified as disabled." H.R.REP.
No. 101-485, pt. 2, at 75 (1990), reprinted in 1990
U.S.C.C.A.N. 303, 357-58;"
Doe v. US Postal Service. 317 F. 3d 339 - Court of
Appeals. Dist. of Columbia Circuit 2003
Under color of the Washington State Public
Records Act, University of Washington (UW)
employees violate these confidentiality
requirements by unauthorized sharing, maintaining
and producing employee health information in
public records. This is exactly the discriminatory
practice that Congress expressly prohibited in
enacting the ADA.
The Ninth Circuit’s decision allows
Washington public employers to obtain and share
employee health information without authorization,
in violation of Federal health information privacy
statutes, under color of the state public records act.
In effect, stigmatizing individuals with disabilities or
serious medical conditions, precluding them from
the opportunity to compete on an equal basis, to
pursue employment opportunities.

5

QUESTION 1: Does a “comprehensive remedial
scheme for the enforcement of a statutory right”
under the Americans with Disabilities Act (ADA) [42
U.S.C. 12101 et seq.] foreclose resort to a 42 U.S.C.
§ 1983 claim to vindicate that right?
The Ninth circuit decided:
“With respect to the release of Dalessio’s health
and medical information, a § 1983 claim cannot
be sustained under the ADA or HIPAA. See
Vinson v. Thomas, 288 F.3d 1145, 1155-56 (9th
Cir. 2002) (“[A] comprehensive remedial scheme
for the enforcement of a statutory right creates a
presumption that Congress intended to foreclose
resort to more general remedial schemes to
vindicate that right.” (internal quotation marks
and citation omitted)).” (App. at 4)
THE NINTH CIRCUIT court of appeals has
decided an important question of federal law that
has not been, but should be, settled by this Court,
AND decided the question in a way that conflicts
with relevant decisions of this Court.
a. There is no “comprehensive remedial
scheme for the enforcement of a statutory
right” to health information privacy under the
ADA.
The overwhelming majority of ADA cases in
federal courts are related to the provision of public
services and public accommodations, which areas
are addressed in Titles II and III. Titles II and III
contain their own enforcement provisions in §§
12133 and 12188 respectively.

6

The Vinson case, cited by the Ninth circuit
(above) is based on claims “they denied him
vocational rehabilitation services in violation of his
rights under Title II of the ADA and section 504 of
the Rehabilitation Act.” (Vinson v. Thomas^) This is
Not Applicable as Precedent.
The Vinson court found:
“Vinson may not proceed against Thomas in her
individual capacity on his claim under 42 U.S.C. §
1983, predicated upon her alleged violation of
Title II of the ADA and section 504 of the
Rehabilitation Act, because that claim is barred
by the comprehensive remedial scheme of those
Acts.” Vinson v. Thomas
ADA SUBCHAPTER II specifies procedures
for enforcement in § 12133: “The remedies,
procedures, and rights set forth in section 794a of
title 29 shall be the remedies, procedures, and
rights this subchapter provides to any person
alleging discrimination on the basis of disability in
violation of section 12132 of this title.”
And:
“After Vinson filed his lawsuit, the DLIR reopened
his case and he was granted vocational
rehabilitation benefits, including schooling at his
requested pace of study.”
Vinson v. Thomas. 288 F.3d 1145 9th Circuit 2002
Vinson’s LsEpjfailure to accommodate claim was
apparently barred by evidence of State actions to
determine eligibility and eventually provide
reasonable accommodations.

7

Title II “remedial schemes” are not
applicable to claims brought under subchapter Title
I.
The Ninth circuit court did not identify any
“remedial scheme” that would foreclose
petitioner’s 42 U.S.C. § 1983 claim. There is no
evidence, and respondents have never alleged any
precluding circumstances. The university refused
any corrective action (“The University must
respectfully deny your claim... "sorry that we
cannot remedy this situation for you; the University
is only able to resolve claims for which we have
legal liability." (Dkt. 56-1 at 20)).
If the ADA did contain any provisions that
would preclude Dalessio’s claims, "[t]he burden ...
lies with the defendant in a § 1983 action to prove
preclusion.” Bullington v. Bedford County. 905 F. 3d
467 6th Circuit 2018. quoting Charvat v. E. Ohio
Reg'l Wastewater Auth., 246 F. 3d 607, 615 (6th Cir.
2001)
The Petitioner claims a cause of action arising
under Title I, 42 U.S.C. § 12112, which creates a
statutory right to employee health information
privacy, and prescribes the due process required
for sharing and maintaining employee health
information:
“information obtained regarding the medical
condition or history ... is collected and
maintained on separate forms and in separate
medical files and is treated as a confidential
medical record.” § 12112(d)(3)(B)
Relevant Title I Enforcement provisions are in
42 U.S.C. § 12117:

8

“The powers, remedies, and procedures set forth
in sections 2000e-4, 2000e-5, 2000e-6, 2000e-8,
and 2000e-9 of this title shall be the powers,
remedies, and procedures this subchapter
provides to the Commission, to the Attorney
General, or to any person alleging discrimination
on the basis of disability in violation of any
provision of this chapter, or regulations
promulgated under section 12116 of this title,
concerning employment.”
“To exhaust administrative remedies for an ADA
claim, a plaintiff must file a timely charge with the
Equal Employment Opportunity Commission
("EEOC") See 42 U.S.C. § 2000e-5; 42 U.S.C. §
12117(a).” Bullington v. Bedford County. 905 F.
3d 467 6th Circuit 2018
Unlike Bullington, here there is no question
that the petitioner filed a timely charge with the
EEOC. (Dkt. 113-12 at 18)
When there is no “remedial scheme” for the
enforcement of a statutory right provided under the
ADA, § 1983 provides a remedy for actions under
color of law which contravene federally protected
rights to health information privacy, whether those
rights derive from the Constitution or from a federal
statute.
Regarding 42 U.S.C. §1983:
This law is clearly corrective in its* 163
character, intended to counteract and furnish
redress against State laws and proceedings, and
customs having the force of law, which sanction
the wrongful acts specified. Adickes v. SH
sc If

mi

9
Kress & Co.. 398 US 144 - Supreme Court 1970
quoting Jones v. Alfred H. Mayer Co., 392 U. S.
409 (1968).

b. There is no evidence of congressional intent
to foreclose resort to the § 1983 remedy to
vindicate employee rights to health
information privacy under the ADA.
“"In those cases in which the § 1983 claim is
based on a statutory right, 'evidence of such
congressional intent may be found directly in the
statute creating the right, or inferred from the
statute's creation of a comprehensive
enforcement scheme that is incompatible with
individual enforcement under § 1983."'
Fitzgerald, 555 U.S. at 252, 129 S.Ct. 788 (quoting
Rancho Palos Verdes v. Abrams, 544 U.S. 113, 120,
125 S.Ct. 1453, 161 L.Ed.2d316 (2005)).”
Bullington
The ADA does not create any “enforcement
scheme” that is incompatible with individual
enforcement. Unlike the Health Insurance
Portability and Accountability Act (HIPAA), which
incorporates administrative provisions in 42 U.S.C.
§ d5(a) specifying fines for violations and
enforcement by the HHS secretary or state attorney
general, the ADA specifically provides for
enforcement by “any person.” (in 42 U.S.C. §
12117).
In every case that decided that § 1983 claims
based on statutory rights under the ADA are barred
by any “scheme,” evidence proved that procedures

10
were in place and actions were taken to provide
reasonable accommodations, or the Plaintiff did not
qualify for or participate in programs for
accommodations, or did not exhaust administrative
remedies for an ADA claim. None of these
conditions are applicable here.
Remedies provided under Titles II and III are
not applicable.
“The ordinary inference that the remedy
provided in the statute is exclusive can surely be
overcome by textual indication, express or
implicit, that the remedy is to complement, rather
than supplant, § 1983.” Rancho Palos Verdes v.
Abrams. 544 US 113 - Supreme Court 2005
One cannot overlook that Congress
expressly provided in the ADA that:
"Nothing in this chapter shall be construed to
invalidate or limit the remedies, rights, and
procedures of any Federal law or law of any
State or political subdivision of any State or
jurisdiction that provides greater or equal
protection for the rights of individuals with
disabilities than are afforded by this
chapter.” 42 U.S.C. S 12201(bl
Congress clearly did not intend for remedies
provided under the ADA to be exclusive or limited.
c. Federal Courts have not Squarely Addressed
Whether § 1983 Claims Based on Statutory
Rights Created by the ADA Are Foreclosed.
In Bullington v. Bedford County. 905 F. 3d 467
6th Circuit 2018. the court recognized:

11

“We have not squarely decided whether
plaintiffs can use § 1983 to enforce the ADA.”
And
“we do not need to reach a conclusion on this
issue because Bullington's § 1983 claims allege
constitutional violations, not violations of the ADA
itself.”
In Bullington’s case, she conceded that she
did not file a charge with the EEOC, and the court
dismissed her claims based on ADA statutory
violations. But the court found that:
“Bullington pleaded "that Defendant Cooper
violated her federal constitutional rights secured
by the 14th amendment to be free from
discrimination and retaliation as a result of her
illness/disability." R. 28 (Second Am. Compl. 51
14) (Page ID #90) (emphasis added). She has also
alleged "that Bedford County is liable for the
violation of [Bullington's] federal constitutional
rights pursuant to 42 U.S.C. § 1983 in failing to
provide proper supervision and training to
prevent this type of unlawful, discriminatory
abuse." Id. 15 (Page ID *472 #90) (emphasis
added). Thus, Bullington's § 1983 disability
discrimination claims are being brought pursuant
to the Fourteenth Amendment's Equal Protection
Clause, not the ADA. (Bullingtonl
“Based on the Supreme Court's analysis in
Fitzgerald, we have identified "three key
components" to consider when examining
congressional intent to preclude a constitutional
claim: the statute's (1) text and history, (2) its
remedial scheme, and (3) the contours of its
rights and protections. Boler, 865 F.3d at 402-06.
We have also stated that "[t]he burden ... lies
with the defendant in a § 1983 action to prove

12

preclusion." Charvat v. E. Ohio Reg'l Wastewater
Auth., 246 F.3d 607, 615 (6th Cir. 2001). After
reviewing the ADA for these components, we
conclude that the Congress did not intend, by
enacting the ADA, to preclude § 1983 claims for
disability discrimination.”
Bullington v. Bedford County. 905 F. 3d 467 6th
Circuit 2018
The Bullington court remanded the action to
the district court for further evaluation as to
“whether justice requires that Bullington have an
opportunity to amend her complaint in light of this
opinion." id.
In the petitioner’s case, her appointed pro
bono attorney emphasized constitutional claims
under the Fourth and Fourteenth amendments,
based partially on unlawful disclosures of protected
health information along with other privileged
information. (App. at 61, 66, 69, 72, 82, 93-99)
These constitutional claims were dismissed at
summary judgment, when the court decided:
“None of the information concerning Plaintiff
which appears in any document she has
produced as evidence can be described as
“shocking,” “degrading,” “egregious,”
“humiliating,” or “flagrant.” (App. at 21)
And:
“See City of Ontario, Cal. v. Quon, 560 U.S. 746,
761 (2010) (no Fourth Amendment violation
where there were “reasonable grounds for
suspecting that the search [was] necessary for a
noninvestigatory work-related purpose.” (App.
at 3)

13

The Ninth district apparently decided that,
under color of the public records act, UW
employees were justified in searching for and
producing privileged information, as long as that
information is not judged as “shocking,”
“degrading,” “egregious,” “humiliating,” or
“flagrant.” (The Ninth circuit did not consider the
petitioner’s assertions that, as a public employee,
Dalessio has a due process property right to her
personnel file, and that UW violated that right as
well.)
With dismissal of constitutional claims, the
Ninth circuit decided that § 1983 claims based on
violations of ADA statutory rights are foreclosed by
some unspecified “remedial scheme.” (App. at 4)
The Ninth circuit overlooked the fact that
there is no “remedial scheme” in the Act that
forecloses § 1983 claims.
The Ninth circuit did not consider that 42
U.S.C. § 12112 confidentiality provisions proscribe
practices that are discriminatory in effect, in order
to carry out the basic objectives of the Fourteenth
amendment Due Process and Equal Protection
Clauses, (see § 12101 (b)(4) "to invoke the sweep of
congressional authority, including the power to
enforce the fourteenth amendment.")
“When Congress seeks to remedy or prevent
unconstitutional discrimination, § 5 authorizes it
to enact prophylactic legislation proscribing
practices that are discriminatory in effect, if not in
intent, to carry out the basic objectives of the
Equal Protection Clause.” Tennessee v. Lane.
541 US 509 - Supreme Court 2004

14

The ADA creates a statutory right to
employee health information privacy that can be
enforced under § 1983, without having to invoke the
constitution.
See also:
“but the Eleventh Amendment does not extend
its immunity to units of local government. See
Lincoln County v. Luning, 133 U. S. 529, 530
(1890). These entities are subject to private
claims for damages under the ADA without
Congress' ever having to rely on § 5 of the
Fourteenth Amendment to render them so.”
Board of Trustees of Univ. of Ala, v. Garrett. 531
US 356. 2001
The record includes sufficient evidence that
UW employees disclosed information subject to the
ADA's confidentiality requirement, thus
“subjecting employees to the "blatant and subtle
stigma" that attaches to "being identified as
disabled." H.R.REP. No. 101-485, pt. 2, at 75 (1990),
reprinted in 1990 U.S.C.C.A.N. 303, 357-58;
“Title 42 U. S. C. § 1983 provides:
"Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory ... subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding
for redress."

15
In Maine v. Thiboutot, 448 U. S. 1 (1980), we held
that this section "means what it says" and
authorizes suits to enforce individual rights under
federal statutes as well as the Constitution. Id., at
4.”
Rancho Palos Verdes v. Abrams. 544 US 113Supreme Court 2005
As the Supreme Court made clear in Maine v.
Thiboutot, § 1983 provides a remedy for actions
under color of law which contravene federally
protected rights, whether those rights derive from
the Constitution or from a federal statute.
d. THIS CASE IS THE APPROPRIATE VEHICLE
FOR RESOLVING THE QUESTION
PRESENTED
The Ninth district court’s ruling is not based
on underlying facts, but is generalized to
encompass all 42 USC 1983 claims based on state
employees acting under color of law, in violations of
statutory rights created by the ADA.
The respondents violated 42 U.S.C. § 12112
health information privacy provisions under Title I
of the ADA, and do so under color of the State
public records act.
The question here is simply whether 42
U.S.C. § 1983 claims based on proven, repeated
violations of ADA statutory rights by a public
corporation and its employees are precluded when
there is nothing in the Act identifying preclusion or

16
providing a remedy, and congress has expressly
provided:
“Nothing in this chapter shall be construed to
invalidate or limit the remedies, rights, and
procedures of any Federal law or law of any State
or political subdivision of any State or jurisdiction
that provides greater or equal protection for the
rights of individuals with disabilities than are
afforded by this chapter.” 42 U.S.C. § 12201 (b^
The Ninth circuit finding, if allowed to stand,
allows the university and any public agency to
continue its unlawful practices, under color of the
public records act, acting under some misguided
notion that it is their prerogative to expose to the
public the personal information of employees who
request accommodations or medical leave.
“that view would force employees to choose
between waiving their right to avoid being
publicly identified as having a disability and
exercising their statutory rights — including the
rights to FMLA leave and to "reasonable
accommodations" for their disabilities, see 42
U.S.C. § 12112 — that may depend on disclosure
of their medical conditions. Such a result would
run directly counter to Congress's purpose in
enacting the ADA, which was, at least in part, to
permit employers to inquire into employees'
medical conditions in order to provide
reasonable accommodations, while avoiding
subjecting employees to the "blatant and subtle
stigma" that attaches to "being identified as
disabled." H.R.REP. No. 101-485, pt. 2, at 75

17

(1990), reprinted in 1990 U.S.C.C.A.N. 303, 35758;,”

. returning employees to the very bind
Congress sought to avoid by enacting the
confidentiality requirement.”
Doe v. US Postal Service. 317 F. 3d 339 - Court of
Appeals. Dist. of Columbia Circuit 2003
A 2008 amendment to § 12101 was included,
in part:
“to convey that it is the intent of Congress that
the primary object of attention in cases brought
under the ADA should be whether entities
covered under the ADA have complied with their
obligations ...” see FINDINGS AND PURPOSES
OF PUB. L. 110-325 (b)(5) in § 12101
The University has not complied with their
obligations under the ADA. Obtaining, maintaining
and producing medical information in public
records, without consent, is a violation of federal
statutes.
The ADA gives employees the right to health
information privacy. Failure to enforce that right
results in unpleasant lawsuits where the court
further exposes the medical condition to the public
(in opinions widely available on websites such as
Google Scholar), and the plaintiff is subjected to
prejudice and judged by the court on a legal
standard of whether the health information is
“shocking,” “degrading,” “egregious,”
“humiliating,” or “flagrant.” (App. at 21)

18
Respondents deprived Ms. Dalessio of her
right to health information privacy, and tens of
thousands of current and former University
employees are at risk of being denied protections
Congress promised them under the ADA.
Therefore, this court should grant this
petition, and stop the Respondents’ unlawful
practices.

QUESTION 2: Did the Ninth circuit court of appeals
so far depart from the accepted and usual course of
judicial proceedings, or sanction such a departure
by the district court, as to call for an exercise of this
Court’s supervisory power?
STATEMENT OF THE CASE
I. FACTS (see Complaint App. at 52)
Ms. Dalessio worked for over sixteen years
as a public employee, in a classified staff position
with the University of Washington (UW). In the last
year of her employment, she requested
accommodations for a medical condition. As a
result, she was required to undergo physical and
psychological evaluations, and subjected to
harassment and abuse by her supervisor, which led
to her resignation under terms of a confidential
settlement agreement.
Several years after her resignation, she
discovered that UW had acquired and maintained
protected health information in violations of ADA
and HIPAA health information confidentiality
requirements, when UW employees provided

19

electronic copies of these records in response to a
request under the Washington Public Records Act
(RCW 42.56 etseq.) from a belligerent neighbor, for
all public records pertaining to Ms. Dalessio.
University employees searched Disability
Services, Human Resources, payroll, benefits, UW
Medicine and other records, made electronic
copies of privileged documents and transmitted
these in public emails to the UW Office of Public
Records.
Despite applicable exemptions under the
Public Records Act and prohibitions in state and
federal laws, UW obtained and distributed
protected information. The university maintains
these records in publicly accessible files, and
disclosed them in responses to public records
requests. The university produced Dalessio’s
confidential information (including Social Security
Number) to her hostile neighbor.
The university produced “information
contained in the claim files and records of injured
workers,” “requests for accommodation for
disability or serious medical condition,” comments
by other employees about disabilities, medical
testing results, confidential settlement agreements,
performance evaluations, employee identification
number, date and place of birth, citizenship, and
other personal data, including medical id numbers
and social security number.
After Dalessio complained to University
officials, rather than provide reassurances that
disclosures would not reoccur, the University
continued these practices, reproducing thousands

20

of additional pages of confidential and sensitive
personal information in additional Public Records.
Ms. Dalessio fulfilled all exhaustion
requirements under the ADA and Washington State
law and was denied any administrative remedies
before filing her “COMPLAINT FOR INVASION OF
PRIVACY/ PUBLIC RECORDS VIOLATIONS;
BREACH OF CONTRACT; DEFAMATION/LIBEL;
DISCRIMINATION/ RETALIATION; NEGLIGENCE" in
King County Superior Court, (App. at 106) pursuant
to the parties’ employment settlement agreement.
The university removed this case to federal
court, stating: “In this Complaint, Plaintiff alleges
claims arising under the following law of the United
States:”
a.45 CFR Parts 160 & 164 (HIPPA) b. 20 U.S.C. §
1232g(a)(4) and 34 CFR Part 99 (FERPA)
c. 5 U.S.C. § 552(b)(6) (Freedom of Information
Act)(FOIA) d. 42 U.S.C. § 2000e (Title VII of the Civil
Rights Act)(section 704(a)) e. 42 U.S.C. §12101
(Americans with Disabilities Act) (ADA)
f. 42. U.S.C. §1983 g. 42 U.S.C §1981. (App. at 103104)
The university does not deny disclosures of
personally identifiable, confidential information in
response to public records requests (described
App. at 74-79) “the documents speak for
themselves.” Dkt. 107 at 7 and 9-10
The university would not agree to stipulated
motions to seal records before its summary
judgment motions, and UW Special Assistant
Attorney General, Jayne Freeman published Ms.

21

Dalessio’s confidential information (including SSN,
Date and place of birth, and health information) in
the court record, necessitating court action to seal
the records. (App. at 67-72)
Rather than provide reassurances that this
would not happen again, Ms. Freeman would not
discuss alternative methods for presenting the
evidence and determined to publish the records in
court electronic records, necessitating several
motions and orders to seal court records. (Dkts. 36,
172, 187-1; DktEntry/16-1, DktEntry/26)
With this lawsuit ongoing, Respondents
continued to produce even more protected,
confidential information in public records
productions, including SSN, Date and place of birth,
home address and phone, physical and
psychological evaluations, medical and insurance
id numbers. (Dkt. 184 at 3-5)
II. THE DISTRICT COURT PROCEEDINGS
• The University moved for summary judgment
dismissal.
• UW special assistant attorney general, Jayne
Freeman published privileged and protected
personal information about Dalessio in the
electronic court records, in violations of FRCP 5.2,
and rules of professional conduct. (App. at 67-72)
• UW objected to discovery, (Dkt. 58, Dkt. 52-1, 562, 56-3, 57-1, 66-1), and did not certify their partial
responses or identify withholding based on
objections. (Dkts. 56-2, -3, Dkt. 66-1)
• With Dalessio’s pro se motions to compel (Dkts.
52, 59), UW’s counter motions for protection from

22

discovery and motion for summary judgment
unheard,
• The district court found that Dalessio “has
articulated colorable claims and that the complexity
of the issues warrants appointment of counsel to
assist her in this proceeding.” Dkt. 65 at 2
• The appointed pro bono attorney amended
Dalessio’s complaint to plead constitutional claims.
(App. at 52)
• The district court granted absolute immunity to
defense counsel, Ms. Freeman and her staff for
unlawful disclosures. (App. at 50)
• After UW attorneys again failed to participate in
good faith production of disclosures and discovery,
Dalessio’s appointed attorney filed renewed
motions to compel, to which UW responded with
motions for protection.
• The court granted Dalessio’s motion to compel
initial disclosures, which UW finally partially
provided as ordered, twenty months after
commencement of this lawsuit, almost two months
after filing their second, renewed motion for
summary judgment.
• The district court did not issue any decision
regarding pending discovery motions and motions
for sanctions.
• The district court dismissed all US constitutional,
state tort and breach of contract claims at Summary
Judgment.
• The district court did not issue any decisions
regarding Dalessio’s claims arising under the
Washington state constitution.

23

• The district court denied Dalessio’s request for
reconsideration and permission to amend the
complaint.
III. THE APPELLATE PROCEEDINGS
• Ms. Freeman filed notice of intent to unseal the
records that the district court previously sealed, to
again publish protected health information and
other privileged information in the electronic court
records.
• Following Dalessio’s motion, the Appellate
Commissioner decided to maintain the records
under seal. DktEntry/36
• The Appellate court affirmed the findings of the
District court, and Ignored Dalessio’s claims arising
under the Washington state constitution. (App. at 2)
• The Appellate court ignored Dalessio’s appeal
regarding jurisdiction and claims against Ms.
Freeman, and denied Dalessio’s request for
rehearing. (App. at 1)
QUESTION 2: Did the Ninth circuit court of appeals
so far depart from the accepted and usual course of
judicial proceedings, or sanctioned such a
departure by the district court, as to call for an
exercise of this Court’s supervisory power?
Authority
“We must determine, viewing the evidence in
the light most favorable to the nonmoving party,
whether there are any genuine issues of material
fact and whether the district court correctly

24

applied the relevant substantive law. See Delta
Sav. Bank v. United States, 265 F.3d 1017, 1021
(9th Cir.2001), cert, denied, 534 U.S. 1082, 122
S.Ct. 816, 151 L.Ed.2d 700 (2002). EEOC v. Luce,
Forward. Hamilton & Scripps. 345 F. 3d 742 (9th
Cir. 2003^
a. Did the Ninth Circuit err in granting summary
judgment when there are questions of
material fact?
The district court granted summary judgment
dismissal, despite the fact that there were at least
thirteen questions of fact as described by Dalessio’s
pro bono attorney in her response. Dkt. 130 at 4-10
The court overlooked material points of fact
and law.
The court’s determination that “there were
“reasonable grounds for suspecting that the search
[was] necessary for a noninvestigatory workrelated purpose” (App. at 3) is not supported by
any evidence, expert testimony or otherwise. This is
a material fact that is genuinely disputed.
The university did not produce any evidence
or testimony of reasonable grounds for suspecting
that the search was necessary for any purpose.
(Dkts. 29, 30, 120, and 121, Declarations of
Defendants Palmer, Swenson, Tapper, and
Saunders are the only defendant testimonies in
evidence. These persons did not testify regarding
any necessity for the searches.)
The university did not produce any evidence
of any grounds for searching disability services
records or any privileged, confidential records.

25

Ms. Dalessio has never been accused of,
investigated or disciplined for abuse, neglect,
exploitation, abandonment, or other acts involving
the victimization of individuals or other professional
misconduct.
The court’s determination that “None of the
information concerning Plaintiff which appears in
any document she has produced as evidence can
be described as “shocking,” “degrading,”
“egregious,” “humiliating,” or “flagrant” (App. at
21) is a material fact that is genuinely disputed.
The evidence of repeated unlawful
disclosures, even while this lawsuit was ongoing, is
evidence of flagrance. Ms. Dalessio has testified
regarding the “shocking,” “degrading,”
“egregious,” and “humiliating,” nature of the
disclosures. (Dkt. 131) This is a disputed question
of fact.
The university did not produce any state of
mind evidence. None of the parties admitted any
mistake or accidental disclosure, or represented
that they were acting in compliance or in “good
faith,” yet the court determined that they were
"entitled to good faith immunity under RCW §
42.56.060.” (App. at 4)
This is a disputed issue of fact and law. The
court’s interpretation of the Washington public
records act as an entitlement to immunity conflicts
with the Washington constitution and laws.
Article 1, SECTION 12:
“No law shall be passed granting to any citizen,
class of citizens, or corporation other than
municipal, privileges or immunities which upon

26

the same terms shall not equally belong to all
citizens, or corporations.”
Article 1, SECTION 8:
“No law granting irrevocably any privilege,
franchise or immunity, shall be passed by the
legislature.”
“The state of Washington, whether acting in its
governmental or proprietary capacity, shall be
liable for damages arising out of its tortious
conduct to the same extent as a private person or
corporation." RCW 4.92.090 Act of March 25,
1963, ch. 159, 1963 Wash. Sess. Laws 753
(codified as amended at WASH. REV. CODE §
4.92.090 (2004)) ^
The court’s finding of “good faith” immunity
is incompatible with its finding of Negligence.
“the Court need not and does not reach the issue of
whether Defendants’ conduct was more than merely
negligent.” (App. at 24)
It is a question of fact whether the disclosures
were in compliance with the public records act, or
whether the unlawful disclosures were the result of
negligence or “more than merely negligent.”
Under the public records act, immunity is
provided to a “public agency, public official, public
employee, or custodian” “if the public agency,
public official, public employee, or custodian acted
in good faith in attempting to comply with the
provisions of this chapter.” (RCW 42.56.060)

27

The district court admitted that compliance
was not considered in its judgment.
"The statement that a party released a document
“pursuant to the PRA” (i.e., in response to a
request made under that statute) is factual; to
describe such an act as “in compliance with” the
PRA is a legal conclusion which appears nowhere
in the Court’s order.” Dkt. 160 at 6 (Order on
Plaintiff’s Motion for Relief Pursuant to FRCP
60(a))
There is a question of fact whether the
university has any procedures in place for
preventing unlawful disclosures.
“a deprivation may be the consequence of a
mistake or a negligent act, and the State may
violate the Constitution by failing to provide an
appropriate procedural response. In a
procedural due process claim, it is not the
deprivation of property or liberty that is
unconstitutional; it is the deprivation of property
or liberty without due process of law — without
adequate procedures.”
Daniels v. Williams. 474 US 327 - Supreme Court
1986
The university did not produce any evidence
that any procedures were in place to prevent
unauthorized disclosures of employee health
information. Regarding petitioner’s motion to
compel disclosures, the district court decided:
“Plaintiff’s request for identification and
production of documents regarding the
University of Washington’s policies and
procedures concerning the Public Records Act is
DENIED. Any documents Defendants intend to

28

introduce as part of their defense have already
been produced.”
“Plaintiff’s request for identification and
production of documents regarding the job
description and training of Ms. Saunders, Ms.
Swenson, Mr. Tapper, Mr. Palmer and John/Jane
Does 1-12 is DENIED.” Dkt. 133 at 2
The University did not produce any documents
regarding any employee training or the job
responsibilities of any of the unnamed participants.
The court ignored the public record
evidence of unlawful practices, and other evidence
in the record. (App. at 65-80)
“t]his court only considered 9 pages of personal
and confidential information given to Betz, and
overlooked many others.”
“the very information cited by her attorney as
“[t]he evidence... already in the record
identifying Plaintiff’s protected health
information that was produced pursuant to the
PRA to David Betz.” (See App. at 12)
The court did not consider any evidence in
the record regarding the university’s practice of
producing confidential information in public
records.
The University has unofficial practices of
producing health information in Public Records.
(Dkt. 162-1 at 3 “Per Meg, health info not exempt
unless highly offensive.” (also Dkt. 48 at 4-5)
Summary Judgment cannot be granted when
there are Issues of Material Facts.

29

b. Did the Ninth Circuit err in assigning the
Burden of Proof to the non-moving party in
summary judgment?
The appeals court decided:
“There is no proof defendants violated Dalessio’s
Fourth or Fourteenth Amendment rights.” (App.
at 3)
The district court decided:
“Second, she presents no evidence (by way of
expert testimony or otherwise) that the sampling
of third party information which she presents is
statistically significant; i.e., represents a
sufficiently large enough percentage of UW’s
total annual PRA production to legally constitute
proof of a “pattern or practice” (a term for which
Plaintiff provides no legal definition).” (App. at
27)

As the moving party in summary judgment, it
is UW’s burden to prove “that there is no genuine
dispute as to any material fact.” FRCP 56 (a)
UW did not present any evidence, by way of
expert testimony or otherwise, that their practice of
searching for and producing disability services and
other privileged, personally identifiable employee
records, was justified or reasonable.
Ms. Dalessio has described the personal and
confidential employee information contained in 24

30

of 24 (100%) UW public record productions. (App.
at 65-80) (also Dkts. 184, 131)
Without complete discovery, it is impossible
for Dalessio to determine any “statistical
significance” based on “UW’s total annual PRA
production.” Dalessio’s motion to compel discovery
was not addressed by the court before summary
judgment.
UW did not present any evidence, by way of
expert testimony or otherwise, that the unlawful
disclosures were limited to 100% of the public
records productions of her personal information
plus the personal information of nineteen other
employees described in the complaint (App. at
75-79) or whether the unlawful disclosures occur in
a small enough percentage of UW’s total annual PRA
productions to legally constitute proof of no
“pattern or practice.”
UW objected to every discovery request, and
only provided partial disclosures twenty months
after commencement of this lawsuit, almost two
months after filing their second motion for summary
judgment.
The court refused to consider evidence that
Dalessio obtained through a new public records
request.
Dalessio produced this evidence to her
appointed attorney as soon as possible after she
received it. (Dkts. 174, 182, 184) Her attorney
diligently but unsuccessfully, attempted to work
with UW attorneys to admit this public record
evidence under seal before the summary judgment

31

hearing. (Dkt. 172 at 3) The court did not consider
these facts. (App. at 8-10)
If Dalessio’s attorney failed to produce
evidence in a timely manner, it was due to UW
attorneys’ uncooperative and unprofessional
behavior.
This public record evidence of UW’s
continuing practice of producing confidential
information (including SSN, date and place of birth,
protected health information, psychological and
medical evaluations, medical ID numbers and other
privileged information, (a small portion under seal
in Dkt. 175)) is more proof, yet the court decided
that the evidence of repeated unlawful disclosure
did not “constitute a sufficient percentage of the
University’s total records production to constitute a
“pattern or practice.” (App. at 10)
“it did not form a part of the Court’s analysis or
ruling” (App. at 11)
Without complete discovery, and a full and
fair hearing of all the evidence, it is unfair to place
the burden of proof on Ms. Dalessio.
c. Was it an abuse of discretion to not allow
Plaintiff/Petitioner to amend the Complaint?
Authority
“If the Court determines that the complaint
should be dismissed, it must then decide whether
to grant leave to amend. Under Rule 15(a) of the
Federal Rules of Civil Procedure, leave to amend
"should be freely granted when justice so
requires," bearing in mind that "the underlying

32

purpose of Rule 15 ... [is] to facilitate decision on
the merits, rather than on the pleadings or
technicalities." Lopez v. Smith, 203 F.3d 1122,
1127 (9th Cir.2000) (en banc) (internal quotation
marks omitted). Nonetheless, a court "may
exercise its discretion to deny leave to amend
due *1210 to 'undue delay, bad faith or dilatory
motive on part of the movant, repeated failure to
cure deficiencies by amendments previously
allowed, undue prejudice to the opposing party .
. ., [and] futility of amendment.'" Carvalho v.
Equifax Info. Servs., LLC, 629 F.3d 876, 892-93
(9th Cir.2010) (alterations in original) (quoting
Foman v. Davis, 371 U.S. 178, 182, 83 S.Ct. 227, 9
L.Ed.2d 222 (1962))."
In re Adobe Systems. Inc. Privacy Litigation, 66 F.
Supp. 3d 1197 - Dist. Court. ND California 2014
There was no “undue delay, bad faith or
dilatory motive on part of the movant, repeated
failure to cure deficiencies by amendments
previously allowed”, or “undue prejudice to the
opposing party.”
Immediately after the Court determined that
the complaint should be dismissed, Dalessio moved
to reconsider and amend her complaint, arguing, in
part, that ADA regulations can be enforced through
an individual claim for injunctive relief. (Dkt. 184 at
8, 9,)
Ms. Dalessio has a right of action against UW
for violations of 42 U.S.C. § 12112, Title 1 of the
ADA, and if her 42 U.S.C. § 1983 claim is dismissed,

33

her claim can be cured by pleading a right of action
under 42 U.S.C. § 2000e-5(g).
The court did not consider this argument, instead
finding:
“The Court understood that Plaintiff was citing to
alleged ADA violations in attempting to establish
her § 1983 claims and addressed the
ineffectuality of that argument with case law
“which holds that § 1983 is not available to
vindicate rights under the ADA.”” (App. at 1011)
If the petitioner’s claim can be cured by
pleading a right of action under 42 U.S.C. § 2000e5, then justice requires that leave to amend should
be granted, “to facilitate decision on the merits,
rather than on the pleadings or technicalities."
Dalessio also requested leave to amend her
complaint, to name UW for tort claims, after the
court noted (in App. at 25):
“Plaintiff does interpose a provision in
Washington law which states that the State of
Washington is liable for damages for the tortious
conduct of its employees (RCW 4.92;090) but the
State of Washington is no longer a defendant in
this case and the statute is inapplicable to the
individual defendants.”
The court decided:
“Plaintiff’s failure to name UW as a defendant on
any of her other claims cannot be cured at this
point.” (App. at 12)
The court’s impatience with this lawsuit does
not justify dismissal on a technicality.

34

The court overlooked that UW was named for
Dalessio’s claims for declaratory relief, and did not
consider whether Saunders is properly named in
her official capacity for pleading actions against the
UW in all other claims.
Dalessio originally named UW as the sole
defendant in this action in King County Superior
Court, pursuant to the parties’ employment
settlement agreement. If her appointed attorney
should have named UW rather than Ms. Saunders
(who may or may not be legally accountable as the
director of the University office of public records
(RCW 42.56.580(1), WAC 478-276-060),1 then
justice requires that leave be given to amend her
complaint.

d. Did the Ninth Circuit err in failing to issue
any decision regarding petitioner’s claims
arising under the Washington State
Constitution?
The court did not issue any decision
regarding claims under the Washington
Constitution, (see Complaint, App. at 91-96)
“in violation of Article I, Section 7 of the
Washington Constitution.” (App. at 92)

1 This remains a question of material fact and law. See Dkt. 89,
depicting mail sent by the district court to Eliza Saunders, filed sua
sponte by the court. (App. At 115)

35

“Dalessio has a constitutionally protected
expectation of privacy in personal identifying
information based on Article 1, Section 7 of the
Washington State Constitution.” (App. at 100)
The Ninth circuit did not consider these
claims in any decision. Dalessio presented the
following authority in her opening brief:
“Washington’s constitution provides broader
protection than the Fourth Amendment, and there
are no explicit limitations on the right to privacy
recognized under the state constitution.”
McCarthy v. Barrett, 804 F. Supp. 2d 1126, 1145
(W.D. Wash. 2011), citing State v. Cheatam, 25
150 Wn.2d 626, 81 P.3d 830 (2003);
“Although the United States Supreme Court has
not yet recognized the right to confidentiality
under the federal constitution, our state
constitution affords a more robust privacy
guaranty. The writers of our constitution
insightfully drafted article I, section 7 to protect
individual rights.” ...
“our state constitution guarantees citizens'
fundamental privacy interest in avoiding
disclosure of personal details. WASH. CONST,
art. I, § 7. This court has long recognized that
article I, section 7 often affords greater privacy
than does the federal constitution. E.g.,
Blomstrom v. Tripp, 189 Wn.2d 379, 399-400, 402
P.3d 831 (2017); State v. Athan, 160 Wn.2d 354,
365, 158 P.3d 27 (2007); State v. Gunwall, 106
Wn.2d 54, 64-67, 720 P.2d 808 (1986).”

36
Washington Public Employees Association et al
v. WASHINGTON STATE 450 P.3d 601. 609
Supreme Court of Washington (Oct. 24. 2019)
Dalessio is guaranteed a heightened right to
privacy under the Washington constitution.
Does the ruling constitute final judgment
when the courts have not issued any decision
regarding this substantial claim?
e. Did the Ninth Circuit err in failing to issue
any ruling regarding petitioner’s appeal of
federal jurisdiction over state claims?
Authority
“Under Gibbs, a federal court should consider
and weigh in each case, and at every stage of the
litigation, the values of judicial economy,
convenience, fairness, and comity in order to
decide whether to exercise jurisdiction over a
case brought in that court involving pendent
state-law claims. When the balance of these
factors indicates that a case properly belongs in
state court, as when the federal-law claims have
dropped out of the lawsuit in its early stages and
only state-law claims remain, [7] the federal court
should decline the exercise of jurisdiction by
dismissing the case without prejudice. Id., at 726727. ...”
Camegie-Mellon Univ. v. Cohill. 484 US 343 Supreme Court 1988 referring to Mine Workers
v. Gibbs, 383 U. S. 715 (1966)

37

Dalessio raised issues of jurisdiction in her
opening brief (DktEntry/21 at 38), motion to strike
(DktEntry/27 at 4) and reply (DktEntry/31 at 3), and
opening reply (DktEntry/ 33-1 at 7).
The respondents/defendants did not include
any Statement of Jurisdiction, “In a statement
preceding the statement of the case in its initial
brief” as mandated in Federal Rule of Appellate
Procedure 28-2.2.
Issues regarding jurisdiction were
overlooked in the Ninth circuit decision. (App. at 2)
In another information privacy case, the Ninth
circuit decided that, even though the plaintiff
requested federal jurisdiction over state claims:
“The district court did not abuse its discretion
by declining to exercise supplemental
jurisdiction over Padron's state law claims
because Padron failed to state a federal claim.
See Ove v. Gwinn, 264 F.3d 817, 826 (9th Cir.
2001) (standard of review; court may decline
supplemental jurisdiction over related state law
claims once it has dismissed all claims over
which it has original jurisdiction).” Padron v.
CITY OF PARLIER Court of Appeals. 9th Circuit.
2019
The court overlooked Dalessio’s opening
brief argument (DktEntry/21 at 38), and did not
issue any decision regarding jurisdiction over her
Breach of Contract claim.
“Even when a party fails to object to removal, this
court reviews de novo whether the district court
has subject matter jurisdiction. See Schnabel, 302

38

F.3d at 1029; Campbell v. Aerospace Corp., 123
F.3d 1308, 1311 (9th Cir. 1997).
“A district court’s decision to enforce or refusal
to enforce a forum selection clause is reviewed
for an abuse of discretion. See Murphy v.
Schneider Nat’l, Inc., 362F.3d 1133, 1137 (9th
Cir. 2004) (enforcing forum selection clause).
“Because forum selection clauses are
presumptively valid, they should be honored
"absent some compelling and countervailing
reason." Bremen. 407 U.S. at 12. 92 S.Ct. 1907.
When the district court dismissed the
federal-law claims in summary judgment, the
“district court has discretion to remand to state
court a removed case involving pendent claims
upon a proper determination that retaining
jurisdiction over the case would be inappropriate.”
Camegie-Mellon
The facts that the district court did not issue
any opinion regarding claims under the
Washington constitution and incorrectly decided
the case under inapplicable state laws, emphasizes
the abuse of discretion.
f. Did the Ninth Circuit overlook relevant
employment contract law and err in
application of irrelevant Washington state
construction contract law?
The court overlooked Washington courts’
opinions extending the discovery rule to numerous
cases involving professional malpractice (Peters v.
Simmons, 552 P. 2d 1053 - Wash/ Supreme Court

39

1976) and in a case arising out of confidential
business memoranda (Kittinger v. Boeing, 585 P. 2d
812 - Wn. App., 1st Div. 1978). (DktEntry/21 at 3637)

The Ninth Circuit decided:
“the discovery rule does not apply. See 1000 Va.
Ltd. P’ship v. Vertecs Corp., 146 P.3d 423, 430-32
(Wash. 2006) (en banc) (applying the discovery
rule narrowly to construction contracts where
latent defects are alleged).” (App. at 3)
The Ninth Circuit decision is improperly
based on a Washington court decision that applies
narrowly to construction contracts where latent
defects are alleged (as opposed to construction
contracts where latent defects are not alleged).
This restriction is not applicable to employment
contracts.
There is no question that this lawsuit was
timely filed after Dalessio discovered the breach,
and there was no way she could have known about
the breach before her belligerent neighbor
produced the confidential and privileged records in
discovery, to be used as evidence in his adverse
possession lawsuit against her.
This case merits, and there is precedent for
application of the discovery rule.
g. Did the Ninth Circuit err in its application of
irrelevant Washington state law regarding
“good faith immunity” for reporting child
abuse to authorities rather than pertinent

40

Public Records laws and the Washington
Constitution?
The ninth circuit decided: “defendants were
entitled to good faith immunity under RCW §
42.56.060. See Whaley v. State, Dep’t of Soc. &
Health Servs., 956 P.2d 1100, 1106 (Wash. App.
1998).” (App. at 4)
But the “good faith” immunity described in
Whaley v. State comes under RCW 26.44.060(1), not
the Public Records Act (RCW § 42.56.050 et seq).
The immunity provided by RCW
26.44.060(l)(a) applies to "any person participating
in good faith in the making of a report" of child
abuse to authorities, and provides for penalties for
false reporting.
By extending the immunity afforded by RCW
26.44.060 to the PRA, which is limited to public
agencies and employees, this court’s decision
conflicts with the Washington State Constitution
Article 1, SECTION 12:
“No law shall be passed granting to any
citizen, class of citizens, or corporation other than
municipal, privileges or immunities which upon the
same terms shall not equally belong to all citizens,
or corporations.”
h. Did the Ninth Circuit err in failing to issue
any decision regarding petitioner’s appeal of
the finding of absolute immunity for defense
counsel. Ms. Freeman? (App. at 50)
Authority

41

“Defense counsel, even if court-appointed and
compensated, are not entitled to absolute
immunity. See Tower v. Glover, 467 U.S. 914, 923
(1984); Sellars v. Procunier, 641 F.2d 1295, 1299
n.7 (9th Cir. 1981).” FTC v. Affordable Media.
LLC. 179 F. 3d 1228 - 9th Cir.1999
Absolute immunity does not extend to
defense counsel.
Ms. Dalessio is not on trial, and Ms. Freeman
is not acting as a prosecutor or a witness in this
action.
Freeman has done nothing to remedy the
effects of her actions. Dalessio’s personal
information remains on the internet, available for
purchase.
Rather than provide reassurances that this
would not happen again, Freeman refused to
discuss alternative methods for presenting the
evidence, necessitating several motions to seal the
court records. Dkt. 36, 172, 187-1 DktEntry/16-1,
DktEntry/26
The court did not issue any decision on
appeal.
i. Did the district court err in failing to issue
mandatory sanctions for violations of court
rules by defense counsel. Ms. Freeman?
The court ignored numerous incidents of
misconduct and claims for sanctions (Dkts. 23, 42
47, 48, 57, 58, 100, 110, 145, 147) for Freeman’s
violations of court rules and rules of professional
conduct.

42

The district court’s appointment of a pro bono
attorney and restarting of discovery, followed by
more than a year and hundreds of hours of work
attempting to obtain relevant information, met by
UW’s continued discovery abuses, and even
personal abuse (Dkts. 78, 144), only to have the
court ignore motions for relief, made the situation
impracticable for Dalessio’s attorney.
The court’s refusal to acknowledge
Freeman’s violations of rules of professional
conduct (RPC 4.1(1), 4.4 (a), and 8.4 see Dkt. 23 at
4), and court rules (FRCP 11(b) see Dkt. 48 at 4;
FRCP 26, 33, 34, 37 see Dkt. 57 at 9-11), (FRE 402,
403 see Dkt. 57) encourages continuing abuses that
distract from the issues, and overburden the court
and the parties. Dkts. 23, 42, 48, 57, 58, 78, 100, 110,
145,147
When sanctions are mandatory, as Pursuant
to FRCP 37(c), it is not up to the court’s discretion.
Is it a Due Process violation for a court to
ignore, or to reject without sufficient analysis.
substantial claims?
Was the petitioner's right to a fair trial, as
guaranteed by the due process clause of the
Fourteenth Amendment, violated where the district
court frequently misconstrued Dalessio’s
arguments, misinterpreted facts, ignored questions
of fact, applied irrelevant case law, and completely
ignored claims under the Washington State
Constitution?
J-

43

The district court so far departed from the
accepted course of judicial proceedings, as to call
for an exercise of this Court’s supervisory power.
REASONS FOR GRANTING THE PETITION
Privacy violations and misuse of personal
information in the digital age can lead to a range of
harms, including discrimination in employment,
health care, housing, access to credit, and other
areas; unfair price discrimination; domestic
violence; abuse; stalking; harassment; entrapment;
and financial, emotional, and reputational harms.
Privacy harms disproportionately affect lowincome people and people with disabilities or
serious medical conditions.
UW employees are subjected to increased
risk for healthcare discrimination and fraud, identity
theft, and other forms of victimization that can result
from indiscriminate and unlawful disclosures of
personal information, as well as employment
discrimination based on disabilities or medical
conditions.
This case provides an ideal vehicle for
addressing the question: Does a “comprehensive
remedial scheme for the enforcement of a statutory
right” under the Americans with Disabilities Act
(ADA) [42 U.S.C. 12101 et seq.] foreclose resort to a
42 U.S.C. § 1983 claim to vindicate that right?
This question of law is entirely independent
of the issues presented in Question 2.
The fact is that employees of the UW
wrongfully obtained, distributed, and published

44

Ms. Dalessio’s medical information, and continue to
retain this information in public records, in
violations of the ADA and HIPAA.
UW employees should reasonably know that
obtaining, maintaining and producing medical
information in public records, without consent, is a
violation of federal statutes, yet they search for and
produce this personal classified employee health
information to the general public under the public
records act.
The Ninth Circuit’s decision, if left to stand,
allows Washington public agencies to violate health
information privacy statutes with impunity under
color of the public records act, denying employees
the very right Congress promised by enacting the
ADA confidentiality requirement.
If the Ninth Circuit’s decision is left to stand,
state entities will be virtually immune to court
proceedings, allowing discrimination based on
perception of disability to continue with impunity.
The Court’s decision effects over 40,000
current UW employees, and tens of thousands of
former employees. Many potential lawsuits could
be avoided by enforcing UW compliance with
health information confidentiality laws.
"the continuing existence of unfair and
unnecessary discrimination and prejudice denies
people with disabilities the opportunity to
compete on an equal basis." 42 U.S.C. §
12101 (a) (8)-(9)
For the reasons set forth above, a writ of certiorari
should be granted.

45

Respectfully submitted February 24, 2021

Julie Dalessio
1110 29th Ave.
Seattle, WA 98122
206 324 2590
Juliedalessio@msn.com

